OIG Investigative Reports, Grand Jury Returns Indictment Charging Pell Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
NEWS RELEASE:
June 30, 2000
CONTACT PERSON:
Luis M. Perez
Assistant United States Attorney
Ph. 305-961-9418 /Fx. 305-530-6168
E-mail: afs0l.po.lperez@usdoj.gov
Grand Jury Returns Indictment Charging Pell Grant Fraud
Guy A. Lewis, United States Attorney for the Southern District of Florida; Susan Eager, Acting Special Agent in Charge, Atlanta Regional Office, United States Department of Education; and Hector M. Pesquera, Special Agent in Charge, Federal Bureau of Investigation, Miami Field Office, announced today the return of a Superseding Indictment charging nine defendants in a massive conspiracy ultimately resulting in the loss of in excess of $3,000,000 to the Pell Grant Program, the Department of Education program meant to assist students in obtaining a college or vocational school education.
Over the course of five years, Garces Commercial College employees, at the behest and direction of its administrators, recruited scores of "college students" from Musa Isle Senior Center, a Metro-Dade Housing and Urban Development facility for elderly Miami-Dade County residents. Although Garces students were being taught macrame and other crafts classes, the Pell Grant Program was paying for what conspirators had claimed were Pell-Approved Interior Decorating and Graphic Design classes. Further, the conspirators then began "recycling" student files, time after time, until finally, the school, the investigation revealed, filed numerous claims for several "college students" who were deceased when they were supposedly attending Garces courses.
Members of the conspiracy then funneled millions of dollars in Pell funds to several dummy corporations constructed to siphon off the money made from the scam. Several companies were incorporated off-shore with bank accounts in foreign countries.
The thirty-eight (38) count Indictment charges the nine charged defendants with conspiracy to commit offenses against the United States, wire fraud, false claims, conspiracy to launder money and money laundering.
The defendants charged are: Gabriel Torres, 03/24/58, of Davie, Florida, Director of Garces; Elena Nespereira, 10/28/51, of Miami, Garces President; Marcial Torres, 7/3/54, of Chicago, Illinois, who owned several corporations that received money from Garces; Adamina Ortega, 8/28/35, of Miami, a Garces business manager; Miriam Carrandy, 12/19/46, of Miami, Director of Financial Aid at Garces; Haydee Alvarez, of Miami, an employee in the Garces financial aid department; Hiran Valle, 7/9/51, of Hialeah, a Garces handyman; Alina Torres, 10/10/68, of Hialeah Gardens, a receptionist at Garces; and Osmara Sam, 4/10/25, of Miami, who was Activities Director for the Musa Isle Senior Center, the facility from where all of the "college students" were recruited.
The case was investigated by Special Agent Robert M.  McRae, Jr., of the Department of Education, and Special Agent Kimberly D. Landon  of the Federal Bureau of Investigation.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov